No. 19-29
In the

Supreme Court of the United States
__________________
TROY BEEMER,
Petitioner,
v.
UNIVERSITY OF SOUTHERN CALIFORNIA, et al.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________
BRIEF IN OPPOSITION
__________________
JULIE ARIAS YOUNG
Counsel of Record
PUNEET K. SANDHU
YOUNG & ZINN LLP
1150 South Olive St.
Suite 1800
Los Angeles, CA 90015
(213) 362-1860
jyoung@yzllp.com
Counsel for Respondent
University of Southern
California

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
CORPORATE DISCLOSURE STATEMENT
The University of Southern California is a not-forprofit public benefit corporation. It has no corporate
parent and no publicly held corporation owns ten
percent or more of its stock.

ii
STATEMENT OF RELATED PROCEEDINGS
The proceedings in federal trial and appellate courts
identified below are directly related to this case.
Troy Beemer v. University of Southern California and
Does 1-10, no. 2:15-cv-01458 (C.D. Cal.). The Central
District of California granted summary judgment on all
of Petitioner Troy Beemer’s claims on July 24, 2017,
and denied a motion for reconsideration on September
18, 2017, but did not enter a separate final judgment.
Troy Beemer v. University of Southern California and
Does 1-10, no. 17-56573 (9th Cir.). The Ninth Circuit
entered judgment on March 6, 2019. Petitioner applied
for rehearing, which was denied on March 20, 2019. A
final judgment was issued on April 9, 2019.

iii
TABLE OF CONTENTS
CORPORATE DISCLOSURE STATEMENT . . . . . . i
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
A. Legal Background . . . . . . . . . . . . . . . . . . . . . . 3
B. Factual Background . . . . . . . . . . . . . . . . . . . . 7
1. The University of Southern California’s
Nurse Anesthesia Program . . . . . . . . . . . . 7
2. Petitioner Enrolls in the Program but
Fails to Return from a Medical Leave of
Absence. . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
C. Proceedings Below . . . . . . . . . . . . . . . . . . . . . 11
REASONS FOR DENYING THE PETITION. . . . . 15
A. This Case Does Not Warrant Review Because
There Is No Circuit Split. . . . . . . . . . . . . . . . 15
B. The Lower Courts Have Applied a Consistent
Standard to Cases Involving the Admission
and Retention of Students in Post-Secondary
Educational Programs. . . . . . . . . . . . . . . . . . 15
C. A Ruling on the Question Presented Would
Not Change the Outcome of the Case. . . . . . 18
D. The Decision Below Is Unpublished. . . . . . . 18

iv
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

v
TABLE OF AUTHORITIES
CASES
Alexander v. Choate,
469 U.S. 287 (1985). . . . . . . . . . . . . . . . . . . . . . 5, 6
Amir v. St. Louis Univ.,
184 F.3d 1017 (8th Cir. 1999). . . . . . . . . . . . . . . . 7
Anderson v. Univ. of Wis.,
841 F.2d 737 (7th Cir 1988) . . . . . . . . . . . . . . . . . 7
Bd. of Curators of Univ. of Missouri v. Horowitz,
435 U.S. 78 (1978). . . . . . . . . . . . . . . . . . . . . . . . . 6
Collings v. Longview Fibre Co.,
63 F.3d 828 (9th Cir. 1995), cert. denied,
116 S. Ct. 711 (1996). . . . . . . . . . . . . . . . . . . . . . . 3
Granfinanciera, S.A. v. Nordberg,
492 U.S. 33 (1989). . . . . . . . . . . . . . . . . . . . . . . . 18
Halpern v. Wake Forest Med. Sci.,
669 F.3d 454 (4th Cir. 2012). . . . . . . . . . . . . . . . . 7
Kaltenberger v. Ohio Coll. of Podiatric Med.,
162 F.3d 432 (6th Cir. 1998). . . . . . . . . . . . . . . . . 7
Lue v. Moore,
43 F.3d 1203 (8th Cir 1995) . . . . . . . . . . . . . . . . 16
Maples v. Univ. of Texas Med. Branch at Galveston,
524 Fed. Appx. 93 (5th Cir. 2013) . . . . . . . . . . . 16
McCulley v. Univ. of Kansas Medical School,
591 Fed. Appx. 648 (10th Cir. 2014) . . . . . . . . . 16

vi
McGregor v. La. State Univ. Bd. of Supervisors,
3 F.3d 850 (5th Cir. 1993). . . . . . . . . . . . . . . . . 7, 8
McGuinness v. Univ. of N.M. Sch. of Med.,
170 F.3d 974 (10th Cir. 1998). . . . . . . . . . . . . . . . 7
Powell v. Nat’l Bd. of Med. Exam’rs,
364 F.3d 79, corrected,
511 F.3d 238 (2d Cir. 2004) . . . . . . . . . . . . . . . . . 7
Regents of Univ. of Michigan v. Ewing,
474 U.S. 214 (1985). . . . . . . . . . . . . . . . . . . . . 6, 15
School Board of County of Nassau v. Arline,
480 U.S. 273 (1987). . . . . . . . . . . . . . . . . . . . . . . . 6
Shaikh v. Lincoln Mem. Univ.,
608 Fed. Appx. 349 (6th Cir. 2015) . . . . . . . . . . 16
Southeastern Community College v. Davis,
442 U.S. 397 (1979). . . . . . . . . . . . . . . . . . . passim
Wong v. Regents of the Univ. of California,
192 F.3d 807 (9th Cir. 1999). . . . . . . . . . . . . . . . 17
Wynne v. Tufts Univ. Sch. of Med.,
932 F.2d 19 (1st Cir. 1991) . . . . . . . . . . . . . . . . . . 7
Zukle v. Regents of the Univ. of Cal.,
166 F.3d 1041 (9th Cir. 1999). . . . . . . 7, 12, 15, 17
STATUTES
29 U.S.C. § 794(a) (2016) . . . . . . . . . . . . . . . . . . . . . . 3
29 U.S.C. § 794(b) (2016) . . . . . . . . . . . . . . . . . . . . . . 3
42 U.S.C. § 12181(7)(j) (1990) . . . . . . . . . . . . . . . . . . 3

vii
42 U.S.C. § 12182(a) (1990) . . . . . . . . . . . . . . . . . . . . 3
42 U.S.C. § 12182(b)(2)(A)(ii). . . . . . . . . . . . . . . . . . . 3

1
INTRODUCTION
The Court should deny the petition because the
question presented by Petitioner was answered forty
years ago in Southeastern Community College v. Davis,
442 U.S. 397 (1979), which held that colleges and
universities are not required to make modifications
that would “fundamentally” alter the nature of the
educational program in order to provide access to
individuals with disabilities. In the ensuing four
decades, courts across the country have applied this
standard, as further developed and refined by
subsequent Supreme Court decisions, with remarkable
fidelity. There is no circuit split. All circuits to have
considered the issue have articulated essentially the
same standard for evaluating whether a student with
a disability is “otherwise qualified” for an educational
program or whether their proposed accommodations
would substantially or fundamentally alter the nature
of the educational program. The outcome of cases
decided under this uniform standard may vary based
on the underlying facts, but that does not demonstrate
inconsistency in the lower courts’ application of the
legal standard. Rather, any differences in outcomes
simply reflect the complex and varied nature of
accommodations analysis.
Petitioner, who failed to complete a graduate
program in nurse anesthesiology at the University of
Southern California (“USC”) even after receiving
numerous accommodations, seeks the Court’s
intervention by lamenting, without evidence, that the
lower courts have inconsistently applied this standard
and have granted “unfettered” deference to the

2
academic judgments of educational institutions. What
the cases uniformly show, however, is that the courts
will defer to the academic judgment of an educational
institution where the institution properly considered
potential accommodations for an individual with a
disability before deciding that a reasonable
accommodation is not available. Courts do not defer to
educational institutions unless the facts establish that
they properly considered potential accommodations and
reached an academic, professional judgment that
reasonable accommodations are not available. This is
as it should be – the courts are carefully balancing the
interests of students with disabilities and the interests
of educational programs in maintaining their
standards, such as the breadth of training necessary to
graduate nurses tasked with placing individuals under
anesthesia.
Even if addressed by the Court, the question
presented would not change the outcome in Petitioner’s
case. This is because the court of appeals, in an
unpublished memorandum opinion, affirmed the
district court’s grant of summary judgment on
Petitioner’s disability discrimination claims on the
independent ground that he was not “dismissed” from
the educational program.
Because this case presents no unresolved question
of federal law, no circuit split, and the outcome would
not change, the petition should be denied.

3
STATEMENT OF THE CASE
A. Legal Background
Section 504 of the Rehabilitation Act provides that
“[n]o otherwise qualified individual with a disability
. . . shall, solely by reason of her or his disability, be
excluded from participation in, be denied the benefits
of, or be subjected to discrimination under any program
or activity receiving Federal financial assistance,”
including any “college, university, or other
postsecondary institution” that accepts federal grants.
29 U.S.C. § 794(a), (b) (2016). Similarly, Title III of the
Americans with Disabilities Act (“ADA”) provides that
“[n]o individual shall be discriminated against on the
basis of disability in the full and equal enjoyment of the
goods, services, facilities, privileges, advantages, or
accommodations of any place of public accommodation,”
including a “postgraduate private school, or other place
of education.” 42 U.S.C. §§ 12182(a), 12181(7)(j) (1990).
In interpreting the ADA, courts may look to cases
interpreting the Rehabilitation Act. See Collings v.
Longview Fibre Co., 63 F.3d 828, 832 n. 3 (9th Cir.
1995), cert. denied, 116 S. Ct. 711 (1996).
Prohibited discrimination includes “a failure to
make reasonable modifications in policies, practices, or
procedures” to allow the participation of individuals
with disabilities. 42 U.S.C. § 12182(b)(2)(A)(ii). Such
modifications, however, must be “necessary” to give an
individual with a disability the same opportunity to
obtain the benefit of the educational program without
“fundamentally alter[ing] the nature” of the program.
Id. (emphasis added).

4
In Southeastern Community College v. Davis, 442
U.S. 397 (1979), the Court interpreted Section 504 in
the postsecondary educational context. Specifically, the
Court considered whether Section 504 “forbids
professional schools from imposing physical
qualifications for admission to their clinical training
programs.” Id. at 400. The plaintiff had a “serious
hearing disability” that meant she depended on
lipreading. She sought admission to a registered
nursing program at Southeastern Community College
(the “College”). Id. After full consideration of Davis’s
disability, the College decided it could not admit her.
Because Davis could “only be responsible for speech
spoken to her, when the talker gets her attention and
allows her to look directly at the talker,” the College
concluded it was “unsafe for her to practice as nurse.”
Id. at 401. “In addition, it would be impossible for
[Davis] to participate safely in the normal clinical
training program, and those modifications that would
be necessary to enable safe participation would prevent
her from realizing the benefits of the program.” Id. at
401-402. The College further concluded that
“adjust[ing] patient learning experiences in keeping
with [Davis’s] hearing limitations could, in fact, be the
same as denying her full learning to meet the
objectives of” the nursing program. Id. at 402.
In analyzing Davis’s claim under Section 504, the
Court first concluded, after close textual analysis, that
“Section 504 by its terms does not compel educational
institutions to disregard the disabilities of handicapped
individuals or to make substantial modifications in
their programs to allow disabled persons to
participate.” Id. at 405. Rather, the statute “requires

5
only that an ‘otherwise qualified handicapped
individual’ not be excluded from participation in a
federally funded program ‘solely by reason of his
handicap,’ indicating only that mere possession of a
handicap is not a permissible ground for assuming an
inability to function in a particular context.” Id.
Second, the Court held that Section 504 did not
require the College to make a “fundamental alteration”
in its curriculum in order to accommodate Davis’s
hearing disability. Citing the undisputed evidence, the
Court explained, “[T]he ability to understand speech
without reliance on lipreading is necessary for patient
safety during the clinical phase of the program … [and]
indispensable for many of the functions that a
registered nurse performs.” Id. at 407. Davis’s
proposed “modifications” to the program—individual
faculty supervision during clinical training and
training her only in those areas of registered nursing
that she would eventually be able to perform, and
dispensing with those that she would not—would
“substantially lower[]” the College’s standards,
something that Section 504 does not require. Id. at
407-408, 413.
The Supreme Court clarified Davis in Alexander v.
Choate, 469 U.S. 287 (1985). In an unanimous opinion,
Justice Marshall explained that Davis “struck a
balance between the statutory rights of the
handicapped to be integrated into society and the
legitimate interests of federal grantees in preserving
the integrity of their programs: while a grantee need
not be required to make ‘fundamental’ or ‘substantial’
modifications to accommodate the handicapped, it may

6
be required to make ‘reasonable’ ones.” Id. at 299-300.
This balance “requires that an otherwise qualified
handicapped individual must be provided with
meaningful access to the benefit that the grantee
offers. . . . [T]o assure meaningful access, reasonable
accommodations in the grantee’s program or benefit
may have to be made.” Id. at 301.
Two years later, in School Board of County of
Nassau v. Arline, the Court explained that determining
whether an individual is “otherwise qualified” requires
an “individualized inquiry” with “appropriate findings
of fact,” including whether reasonable accommodations
are available. 480 U.S. 273, 287-88 (1987).
Other cases have described the deference federal
courts should give to academic decisions, e.g., Regents
of Univ. of Michigan v. Ewing, 474 U.S. 214, 226 (1985)
(declaring that the federal courts are unsuited “to
evaluate the substance of the multitude of academic
decisions that are made daily by faculty members of
public educational institutions”); Bd. of Curators of
Univ. of Missouri v. Horowitz, 435 U.S. 78, 89–91(1978)
(explaining that the federal courts are ill equipped to
review academic evaluations of students made by
educators).
In the four decades following Davis, the lower courts
have synthesized this Court’s guidance in Davis,
Alexander, Arline, and Ewing and have articulated the
same standard for determining when a student is
“otherwise qualified” for admission or to remain in an
educational program, with or without a reasonable
accommodation. For example, the First Circuit held:
“[A] court’s duty is first to find the basic facts, giving

7
due deference to the school, and then to evaluate
whether those facts add up to a professional, academic
judgment that reasonable accommodation is simply not
available.” Wynne v. Tufts Univ. Sch. of Med., 932 F.2d
19, 27-28 (1st Cir. 1991). Circuits that have considered
the question (in the context of Section 504 or ADA
claims) have followed suit. Powell v. Nat’l Bd. of Med.
Exam’rs, 364 F.3d 79, 88, corrected, 511 F.3d 238 (2d
Cir. 2004); Halpern v. Wake Forest Med. Sci., 669 F.3d
454, 463 (4th Cir. 2012); McGregor v. La. State Univ.
Bd. of Supervisors, 3 F.3d 850 (5th Cir. 1993);
Kaltenberger v. Ohio Coll. of Podiatric Med., 162 F.3d
432, 436–37 (6th Cir. 1998); Anderson v. Univ. of Wis.,
841 F.2d 737, 741 (7th Cir 1988) (en banc); Amir v. St.
Louis Univ., 184 F.3d 1017, 1028 (8th Cir. 1999); Zukle
v. Regents of the Univ. of Cal., 166 F.3d 1041, 1047-48
(9th Cir. 1999); McGuinness v. Univ. of N.M. Sch. of
Med., 170 F.3d 974, 979 (10th Cir. 1998).
B. Factual Background
1. The University of Southern California’s
Nurse Anesthesia Program
The University of Southern California’s (“USC” or
the “University”) Nurse Anesthesia Program (the
“Program”) is a graduate degree program that trains
registered nurses in the administration and
management of general anesthesia. Graduates of the
Program may sit for the national certification
examination to become Certified Registered Nurse
Anesthetists (“CRNAs”). CRNAs are licensed to
administer anesthesia to patients just as a physician
anesthesiologist would, often without physician
supervision. They are responsible for patient safety

8
during and after the induction of anesthesia.
Accordingly, the Program takes seriously its duty to
train CRNAs to provide high-quality anesthetic care to
vulnerable patients.
The Program’s rigorous
curriculum, which is designed to simulate the actual
practice of nurse anesthesia as closely as possible,
reflects the gravity of this discipline. Pet. App. 18.
The Program is fully accredited by the Council on
Accreditation of Nurse Anesthesia Programs (the
“Council on Accreditation”), a national organization
that sets federally recognized standards for nurse
anesthesia programs.
These standards include
requirements for the length of study, subjects of
coursework, and minimum number of clinical cases
that graduates must complete as part of their training,
including specific numbers of cases in various
anatomical categories, methods of anesthesia, and
patient conditions. Pet. App. 18-19.
2. Petitioner Enrolls in the Program but
Fails to Return from a Medical Leave of
Absence.
Petitioner enrolled in the Program in August 2011,
but failed to complete it.1 Pt. App. 17. As is relevant
1

Petitioner lists his academic qualifications prior to enrolling in the
Program to assert that he was otherwise qualified for admission. Pet.
4, 12. Petitioner conflates being otherwise qualified for admission and
being otherwise qualified for retention. The latter is the situation in
this case. See McGregor v. Louisiana State Univ. Bd. of Sup’rs, 3 F.3d
850, 854 (5th Cir. 1993) (“Many students, handicapped or not, who
qualify for admission into law school flunk out. They are not qualified
for retention. The question here is whether McGregor is otherwise
qualified for retention in the Law Center’s program.”)

9
here, the undisputed material facts found by the lower
courts (Pet. App. 17, 36-37) establish the following:
During his first year in the Program, Petitioner
“underwent eye surgery [and later] suffered neck and
back injuries in an unrelated car accident.” Pet. App.
17, 23, fn. 6. Petitioner requested, and the Program
granted, time off from classes and clinical rotations for
physical therapy and doctor’s visits. Pet. App. 26.
Later, Petitioner took an incomplete in a clinical course
and agreed with the Program to complete his required
clinical training hours the following semester. Pet.
App. 27. When the following semester arrived, USC
granted Petitioner’s request to take a leave of absence
from all clinical training while continuing with
classroom coursework. Pet. App. 27.
During this time, Petitioner missed review
workshops, failed to complete requirements set forth in
a Contract of Study, did not respond to communications
from the Program, and his research partner
complained to the Program that Petitioner was not
responsive to his communications about a joint project.2
Pet. App. 28-29. The Program then warned Petitioner
that he was risking dismissal from the Program due to
this conduct. Pet. App. 29-30.
In response, Petitioner provided a written “Plan for
Returning to Clinical Training.” Pt. App. 30-31.
Among other things, Petitioner requested to be excused
from a class presentation and other assignments, grade

2

Petitioner states that he was “performing well” in the Program.
Pet. 5, 12. Based on the undisputed material facts, the courts
below found this was not the case. Pet. App. 3-4, 19-20, 25.

10
changes, to complete clinical rotations at two specific
training locations, “some flexibility in [his] clinical
schedule” “[d]ue to [his] continued rehab from the car
accident,” and to graduate on time by simultaneously
completing multiple clinical training rotations that are
designed to be taken one at a time, and in sequence.
Pt. App. 30-31.
The Program analyzed his requests and concluded
that it was not possible to take more than one clinical
course at the same time because each course builds
upon the prior course, and each course requires four to
five full days of work. In addition, Petitioner would be
unable to complete the overall requirement of 550
clinical cases to graduate on time as he requested. Pet.
App. 32. The Program also concluded that it could not
ensure Petitioner would obtain the required minimum
number and variety of clinical cases at the preferred
clinical training cites Petitioner requested. Pet. App.
34. The Program Director asked the Petitioner contact
her to discuss the matter further. He never did.
Petitioner requested a medical leave of absence, which
was granted. He never returned. Pet. App. 34-35.3
Petitioner mischaracterizes this series of events as
the Program “warn[ing] Beemer that if he failed to
meet the unmodified requirements of the program, he

3

Petitioner asserts that he did try to return to the Program
because his attorney sent a demand letter to USC threatening
legal action in March 2014, more than a year after he took what
was supposed to be a semester-long leave of absence. Pet. 7. This
letter was his attorney’s opening salvo in this litigation in the form
of a settlement demand, not a communication from Petitioner to
the Program requesting an accommodation.

11
would ‘be dismissed from the program.’” Pet. 6. He also
claims that his failure to return was “because USC was
unwilling to accommodate his disabilities.” Pet. 7. The
courts below concluded that this was not, in fact, what
happened. Rather, they found that USC provided a
number of accommodations, explained why it could not
grant others (including Petitioner’s request to complete
his clinical training at two or three preferred sites and
to graduate on time by taking multiple clinical courses
at the same time), and asked Petitioner to contact the
Program’s director to discuss the issue of
accommodations further. Pt. App. 34. Petitioner did
not do so. Id.
C. Proceedings Below
1. Petitioner filed suit, alleging that USC failed to
provide reasonable accommodations for a disability
that would have allowed him to complete the Program,
in violation of Section 504 of the Rehabilitation Act,
Title III of the ADA, and California Civil Code section
51.4
2. The district court granted USC’s motion for
summary judgment. Pet. App. 15-16.
Notably,
Petitioner did not dispute any of the material facts
presented by USC. Pet. App. 36-37. The district court
applied the three-step burden-shifting framework
required by Ninth Circuit precedent. Pet. App. 37-39.
It considered whether, in light of the undisputed
4

Petitioner also alleged that he was sexually harassed during a
clinical rotation and then retaliated against after reporting it. The
district court granted summary judgment to USC on these claims,
which Petitioner abandoned on appeal. Pt. App. 45-47.

12
material facts, Petitioner could establish a prima facie
case of disability discrimination by showing: (1) he is
disabled within the meaning of the statutes; (2) he was
“otherwise qualified” to remain a student in the
Program – that is, “he can meet the essential eligibility
requirements of the school, with or without reasonable
accommodation;” (3) he was dismissed from the
Program because of his disability; and (4) “USC
receives federal financial assistance (for the Section
504 claim) [and] is a public entity (for the ADA
claim)….” Pt. App. 37-38 (citing Zukle v. Regents of
Univ. of Cal., 166 F.3d 1041, 1045 (9th Cir. 1999)).
The district court first concluded that Petitioner
failed to make his prima facie case because he “was not
dismissed from the Program.” Pet. App. 39. “This
undisputed fact alone appears to entitle USC to
summary judgment.” Pet. App. 37-39.
In the alternative, the court ruled, “[a]ssuming
arguendo that [Petitioner] was, at least, constructively
dismissed from the Program, USC is still entitled to
summary judgment” because the modifications that
Petitioner requested but did not receive – grade
changes, double-enrollment in clinical coursework so as
to graduate on time, and training only at two or three
clinical sites of his choosing – “would have required a
substantial alteration to the Program or would not
have permitted [Petitioner] to meet Program
standards.” Pt. App. 42. This finding was based on the
unchallenged and undisputed declaration of the
Program’s director. Pt. App. 31-32, 42-43. Therefore,
if Petitioner could not complete the Program without
one or all of these modifications, the district court

13
concluded that he was not “otherwise qualified” with or
without a reasonable accommodation, and so his
disability discrimination claims failed as a matter of
law on this additional ground. Pt. App. 45.
3. Petitioner filed a motion for reconsideration in
the district court, which was denied. Pt. App. 5. The
district court stated Petitioner “was not dismissed,
directly or constructively, from the Program. This fact
was undisputed at summary judgment.” Pt. App. 12-13
(emphasis added). Petitioner also “argue[d] an entirely
new possible modification of the Program—a time
extension that would have afforded him more time to
complete the Program.” Pet. App. 13. The district
court noted that this proposed modification was never
raised prior to Petitioner filing suit: “if this simple
time extension was an available accommodation to
plaintiff, it is unclear why he never raised it with
defendant.” Pet. App. At 13-14.
4. Petitioner appealed to the Ninth Circuit Court of
Appeals. The Ninth Circuit panel hearing the matter
unanimously determined that it was “suitable for
decision without oral argument.” Pet. App. 2.
Affirming the district court’s grant of summary
judgment to USC in an unpublished memorandum
disposition, the court stated that “USC never dismissed
[Petitioner] from the Nurse Anesthetist Program.
Rather, [Petitioner] chose not to return following a
medical leave of absence.” Pet. App. 3. Because he
could not establish this essential element of a prima
facie case of disability discrimination – that he was
dismissed from the educational program because of a
disability – his claims failed on this basis alone. Id.

14
In the alternative, the court of appeals addressed
whether Petitioner was “otherwise qualified” to remain
in the Program with or without a reasonable
accommodation. Pet. App. 3. In doing so, the court
noted that USC provided reasonable accommodations,
including “allowing [Petitioner] to take time off, leave
clinical sites early in order to have extra time to
prepare patient care plans, delay completion of
mandatory clinical training, and receive extra time for
examinations.” Id. Although Petitioner “fault[ed] USC
for denying other requested accommodations. . . USC
properly denied additional accommodations because
they would require substantial modifications of the
program’s standards.” Pet. App. 4.
5. Petitioner filed a petition for panel rehearing.
The court denied the petition. Pet. App. 49-50.

15
REASONS FOR DENYING THE PETITION
A. This Case Does Not Warrant Review
Because There Is No Circuit Split.
As set forth above, supra at pages 6-7, every circuit
to have considered the question has held that courts
should give deference to the academic decisions of
educational institutions, but only so long as a careful
analysis of the facts demonstrates that the educational
institution actually met its obligation to consider
potential modifications that would allow the
participation of an otherwise qualified individual with
a disability without a “substantial” alteration or
“fundamental” modification of the educational program.
That is, citing the Court’s precedents from Davis and
Ewing, the lower courts universally have recognized
that they “must be careful not to allow academic
decisions to disguise truly discriminatory
requirements.” Zukle, supra, 166 F.3d at 1048. Thus,
there is no circuit split here that warrants the Court’s
intervention.
B. The Lower Courts Have Applied a
Consistent Standard to Cases Involving the
Admission and Retention of Students in
Post-Secondary Educational Programs.
Petitioner laments that lower courts have given
“unfettered deference” to academic institutions, but he
fails to present evidence of it. Pet. 3, 9-10. He also
argues that lower courts have been “inconsistent” in
their determinations as to what constitutes a
“substantial” alteration or a “fundamental”
modification. Pet. 2. Not so. In fact, none of the cases

16
cited by Petitioner demonstrate “inconsistency” or
“unfettered” deference to academic institutions. Pet.
11. McCulley v. Univ. of Kansas Medical School, an
unpublished opinion cited by Petitioner, held that the
defendant medical school properly engaged with the
plaintiff to determine her ability to complete the
clinical curriculum, and after learning that she would
be unable to provide life-saving interventions like CPR,
concluded that she could not meet the basic
requirements of the medical curriculum. 591 Fed.
Appx. 648 (10th Cir. 2014). Lue v. Moore involved a
blind prison inmate’s demand for vocational training
from the prison, not an educational institution’s
determination of the availability of a reasonable
accommodation for a student. 43 F.3d 1203 (8th Cir
1995).
Shaikh v. Lincoln Mem. Univ., another
unpublished case cited by Petitioner, concluded not
that unfettered deference was owed to the educational
institution, but that the plaintiff had failed to establish
a genuine issue of material fact as to whether he had
even proposed a reasonable accommodation. 608 Fed.
Appx. 349 (6th Cir. 2015). Maples v. Univ. of Texas
Med. Branch at Galveston, yet another unpublished
case Petitioner cites, was decided on the basis that the
plaintiff failed to establish that the university had
“dismissed” him from the medical program – not on the
grounds that the university was owed some extreme
level of academic deference to a decision not to provide
an accommodation. 524 Fed. Appx. 93, 94-95 (5th Cir.
2013).
In short, Petitioner’s alleged “trend” of
“unfettered deference” and inconsistent opinions in this
area of law simply does not exist.

17
The two Ninth Circuit cases cited by Petitioner for
the “inconsistency” problem actually demonstrate the
consistency with which courts have applied the legal
standards. In the earlier case, Zukle, supra, 166 F.3d
1041, the Ninth Circuit found that the university
provided multiple accommodations to the plaintiff,
including a decelerated course schedule, but the
plaintiff continued to fail courses even with these
accommodations. Id. at 1048-49. Thus, the plaintiff
failed to establish that she was “otherwise qualified” to
remain in the medical program. In Wong v. Regents of
the Univ. of California, 192 F.3d 807 (9th Cir. 1999), a
case decided by the Ninth Circuit the same year as
Zukle, the court of appeals found the underlying facts
to be different. In Wong, unlike Zukle, the university
had failed to meet its obligations to consider potential
accommodations, denying them without conducting the
appropriate analysis of whether they would allow the
plaintiff to meet the academic requirements of the
medical program. Id. at 821-823 (explaining that its
holding “does not conflict” with Zukle because of the
factual differences). Thus, that Wong and Zukle had
different outcomes does not demonstrate inconsistency
or unfettered academic deference.
Rather, it
demonstrates that courts will defer to the academic
decisions of educational institutions, but not if they fail
to meet their obligations to carefully consider potential
accommodations for students with disabilities. This is
exactly as it should be – and demonstrates that this
Court’s intervention is unnecessary.

18
C. A Ruling on the Question Presented Would
Not Change the Outcome of the Case.
Even if the Court were interested in revisiting its
long-standing precedent that modifications which
would fundamentally alter the nature of the academic
program are not “reasonable” accommodations (Davis,
supra, 442 U.S. 397), and that generally courts should
show deference to the academic decisions of educational
institutions, this case would be an improper vehicle in
which to do so. This is because a ruling on the merits
in Petitioner’s favor would not alter the outcome of the
case. The district court and the court of appeals each
correctly concluded based on the undisputed facts that
Petitioner’s claims failed on the independent ground
that he was not “dismissed” from the Program, an
essential element of Petitioner’s prima facie case of
disability discrimination. Pet. App. 3, 12-13, 39.
Accordingly, even if the Court were to consider the
question presented by Petitioner, the outcome of his
case would not change. The Court may deny certiorari
based on any alternative grounds presented in the
record. Cf. Granfinanciera, S.A. v. Nordberg, 492 U.S.
33, 38-39 (1989) (explaining that “a prevailing party
may, of course, defend its judgment on any ground
properly raised below….”) (citation and quotation
marks omitted).
D. The Decision Below Is Unpublished.
The court of appeals unanimously concluded that
this case was suitable for decision without oral
argument. It rendered its decision in an unpublished
memorandum opinion. It therefore lacks precedential
value and does not merit the Court’s attention.

19
CONCLUSION
The petition for writ of certiorari should be denied.
Respectfully submitted,
JULIE ARIAS YOUNG
Counsel of Record
PUNEET K. SANDHU
YOUNG & ZINN LLP
1150 South Olive St.
Suite 1800
Los Angeles, CA 90015
(213) 362-1860
jyoung@yzllp.com
Counsel for Respondent
University of Southern California
JULY 31, 2019

